Case: 20-40655

Document: 00515908529

Page: 1

Date Filed: 06/22/2021

tHmteb States* Court of Appeals!
for tfjr Jftftf) Circuit
United States Court of Appeals
- Fifth Circuit

FILED

No. 20-40655

June 22, 2021
Lyle W. Cayce
Clerk

Stanley Renard Tilley, Sr.,

Petitioner—Appellant^
versus
Bobby Lumpkin, Director\ Texas Department of. Criminal Justice}
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:18-CV-163

ORDER: ,
Stanley Renard Tilley, Sr., Texas prisoner # 1629351, is serving a life
sentence following his conviction for capital murder. He now seeks a
certificate of appealability (COA) to appeal the district court’s dismissal as
untimely of his 28 U.S.C. § 2254 petition challenging this conviction. Tilley
contends that under 28 U.S.C. § 2244(d)(1)(D), the one-year limitations
period should have begun on the date he obtained affidavits from medical
experts that refuted the testimony of state witnesses regarding the injuries
suffered by the victim and the trajectory of the bullets. Relying on the same
evidence, he also contends that he has established his actual innocence,

J

' \

.

(

r£QS\£S\80:bstfl9iea

S

6229062^00..Inermpoa

-e280*-0S 3esS

K

L.
y

\
i

'• • •

ys«i

,/Zc80t»-0S; ;oM(
“

.•' I

/ /

. .

<r

• i

?nrUb Jsnoiftrttozno;) aid tasttein 9tfi fhidv?
b zrt&rj rioi/fw
gi ad iBrfi vnijsDiba' zlnarrivgu* zlnazoic^fL’T {7lknrl .haisbizno:) v.6
^mlktf 3idfiJtup3 oi bslthns

\

V

r-

,norJiJaq £222 % bio lui/isb orfl Istsqqs 0} ADD n r.', ■ jdo'oi lobio ni
lenoriuiiizrtoo sir* 'fctnab artllo §n;wo/iz Ifibnirtzduz b^ atfBm nutn ^slirT
\
,£2t AlT Y£t %xhrk*fo /r V&-taUftK<nta m ;{£)(d)£c££ g .3.&U 82 ".Jdgh .
tizhi/f 2Bffa ^fibntanomi'b ^d”
ydt ftehfiz iiiw oli .(8002) 888
/All “k* aouuiucirj g'J'Wixj i^hieib tjits tbftv
iduuj in/fctji lo
9?b bainszojq zauzai adi 3br;baoa bludo gJzhiij isd+ io zmtflh ifinoftr.tjiJzfiOo
.-2.U V£2 t\3r va\Y*Ui t<.,jadni/ib^3Doiqojf03mi)gBniGDft3Dvi9aabo?33iii.rpobi iu ^nirog isn/boooiq a iiq*teifcrf bombjiifoptobizib aril azusaaS .\££ \n
nor'-toi io mftui lari* xtotnl in ,8Woite rafiomq adl rwdw Dilaai bfuodz A03
" ''1 iK'matj Srfl ibriliah bifev b zmiz noiitte^ orb isrbfriftr dkfftltttif) ii bmVblbov?
■; •* ;«)
b^il-.biiiov^^s^i^o KtehttfirJsdkfc^fr.trigh ^npliuliisnft^iBdoi,.
:t tasAo ‘Vsniiin Isiubaootq all ni tosnoo zfew fvjos ivrtfzib orb ladterf-w :.
.
slisrupoi adt sbara loo zed ^luT .(0002) £8£ ,S\£ .3.U 622 (VuraChN\
:‘ V^&D&ftii’ft'xafliT .G2LU43G'ai AODBioldoftom aid J.vigraT«oa6A-^rrrwo<&
io.in^Ufiioqqi: joI bn* IfioqqB.no ahsqu&q Bonedni boaoqtq os sy^ol io*i
.Q3IH3Q 9Biw?iU! 3ic banuoo

t

x

uV;

I

■

J

,•/

ziamQ J zorrq^\z\
y* T?

‘•■i

'* w *-

- -*i

sf’/iKTa^ri.gaMAV

a

-

.

t:

/

•*.■■.*

K '5 -*
' i. : •

•

a

''
t

^u\s tniTiiO x&s&Z
/

•i

r
i,

! .

:

't

K

i

V

•i

•:ti

i
)

/: j

■

:

*

!

4* •*

.!

!•

:

;

2 -

:•:

t

i

t

j

.^

I
■.:

-A

A

vj , .^

r.

j.- -

?* 6:18-cv-00163-RAS-KNM Document 23 Filed 09/14/20 Page 1 of 2 PagelD #: 1994
Q^e

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
STANLEY R. TILLEY, SR., #01629351

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cvl63

ORDER OF DISMISSAL
Petitioner Stanley Renard Tilley, Sr., a state prisoner confined at the Eastham Unit within
the Texas Department of Criminal Justice (TDCJ) proceeding pro se and in forma pauperis, filed
this federal petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 challenging his
judgment and sentence from Cherokee County, Texas.
United

The petition was referred to

States Magistrate Judge, the Honorable K. Nicole Mitchell, for findings of fact,

conclusions of law, and recommendations for the disposition of the petition.
On August 20, 2020, Judge Mitchell issued a Report, (Dkt. #20), recommending that
Petitioner’s habeas petition be dismissed, with prejudice, and that Petitioner be denied a certificate
of appealability sua sponte. A copy of this Report was sent to Petitioner at his address, with an
acknowledgment card. Petitioner has filed timely objections, (Dkt. #22).
Objections that simply rehash or mirror the underlying claims addressed in the Report are
not sufficient to entitle the party to de novo review. See U.S. v. Morales, 947 F.Supp.2d 166, 171
(D.P.R. 2013) (“Even though timely objections to a report and recommendation entitle the
objecting party to de novo review of the findings, ‘the district court should be spared the chore of
/
traversing ground already plowed by the Magistrate.’”) (internal citations omitted); see also Vega
v. Artuz, 2002 WL 31174466 *1 (S.D. NY Sep. 2002) (unpublished) (“However, objections that
are merely perfunctory responses argued in an attempt to engage the district court in a rehashing
1

/.

>C^ke.5:18-cv-00163-RAS-KNM Document 23 Filed 09/14/20 Page 2 of 2 PagelD #: 1995

/

of the same arguments set forth in the original petition will not suffice to invoke de novo review
of the magistrate judge’s recommendations.”). Here, Petitioner’s objections to Judge Mitchell’s
Report and Recommendation are an attempt to rehash his habeas claims.
Nevertheless, the court has conducted a careful de novo review of the record and
the Magistrate Judge’s proposed findings and recommendations.

See 28 U.S.C. §636(b)(l)

(District Judge shall “make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is made.”).

Upon

such de novo review, the court has determined that the Report of the United States
Magistrate Judge is correct and Petitioner’s objections are without merit. Accordingly, it is
ORDERED that Petitioner’s objections, (Dkt. #22), are overruled and the Report of the
Magistrate Judge, (Dkt. #20), is ADOPTED as the opinion of the court. It is also
ORDERED that the above-styled civil action is DISMISSED with prejudice. Moreover,
it is
ORDERED that Petitioner Tilley is DENIED a certificate of appealability sua sponte.
Finally, it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED
SIGNED this the 14th day of September, 2020.

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

/

2

*ase 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 1 of 12 PagelD #: 1969

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
STANLEY R. TILLEY, SR., #01629351

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cvl63

REPORT AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner Stanley Renard Tilley, Sr., a state prisoner confined at the Eastham Unit within
the Texas Department of Criminal Justice (TDCJ) proceeding pro se and in forma pauperis, filed
this federal petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 challenging judgment
of convictions from Cherokee County, Texas. The petition was referred to the undersigned United
States Magistrate Judge for findings of fact, conclusions of law, and recommendations for the
disposition of the petition.
I. Procedural Background
On February 11, 2010, Tilley was sentenced to life imprisonment—without the possibility
of parole—for the offense of capital murder. He then filed a motion for a new trial, which was
denied without a hearing. Tilley filed a direct appeal, and his conviction was affirmed on April
29,2011. See Tilley v. State, 2011 WL 1689090 (Tex. App.—Tyler 201 \,pet. refd). The Texas
Court of Criminal Appeals refused Tilley’s petition for discretionary review on October 19, 2011.
He did not file a petition for a writ of certiorari with the United States Supreme Court. Tilley then
**)
/

filed a state habeas application on November 30, 2015, and the state habeas court held a hearing
on the application on May 19, 2017. Subsequently, on March 21, 2018, the Texas Court of

1

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 2 of 12 PagelD #:

Criminal Appeals denied Tilley’s habeas application, without a written order, on the findings of
the trial court after the hearing. Tilley then filed this federal habeas petition on March 21, 2018.
II. Factual Background
The Twelfth Court of Appeals summarized the facts of this case as follows:
Lester Anderson testified that he, Appellant, known also as “Frog,” and Tolliver Thirkill,
known as “Bay-Bay,” met in a South Tyler ice cream parlor to plan a drug deal. Thirkill
was to bring $24,000.00 in exchange of a kilo of cocaine, which Appellant was to supply.
Appellant arrived at the meeting in a green vehicle and got into the back seat of Lester
Anderson’s black Tahoe. Thirkill rode in the front passenger seat, and Anderson sat behind
the steering wheel. Appellant asked Thirkill if he had the money. Thirkill “pulled the
money and showed a portion of the money to Appellant.” After an apparent signal from a
person in the green car, Appellant said, “Let’s go back towards Jacksonville.” Anderson
started driving following Appellant’s instructions. After they had crossed the Cherokee
County line but before reaching Jacksonville, Appellant directed Anderson to turn right
onto a county road in a thinly settled area where Appellant’s parents lived.
After they passed Appellant’s parents’ house, Appellant drew a gun, pointed it at Thirkill,
and told him to put his hands on the dashboard. Thirkill tried to hand the money , to
Appellant. At this point, Anderson had slowed to stop at a “T” in the road and asked
Appellant which way to turn. Appellant said, “Take a right.” Anderson told Thirkill., “If
you open that door, I’m going to kill you.” Appellant then fired twice. The first shot hit
Thirkill while he was still partially in the front seat. The second shot hit Thirkill as he was
falling out of the car onto the roadside. Appellant had also left the car. Seeing that both
Thirkill and Appellant were out or nearly out of his vehicle, Anderson sped away leaving
Appellant and Thirkill’s body on the roadside.
Appellant immediately fired “like six or seven times” at Anderson in the fleeing black
Tahoe. Three bullets hit the Tahoe but missed Anderson. Almost immediately, Anderson
saw that he was being pursued by the green car that had brought Appellant to the meeting
in Tyler. A high speed chase ensued with perhaps several more shots fired at Anderson
from the green car. Several witnesses testified that they had seen the Tahoe pursued at a
dangerous speed by the green car, very similar in appearance to the car owned by
Appellant’s girlfriend. Sometime after they reached Highway 175, Anderson lost the green
car and went to his parents’ house in Neches. He answered Thirkill’s cell phone, talked to
Trotter, his daughter’s fiance, and told him what had happened. Anderson’s daughter,
Trotter, and Henry Thirkill came to the Anderson place in Neches. They then drove to
Jacksonville and contacted the police. Anderson gave a statement to the investigator.
Thirkill’s body was found by a nearby resident at dusk beside the road. One bullet
penetrated Thirkill’s left lung and the right side of his heart. The second shot went through
the liver, colon, the heart sac, and the arch of the aorta. Both wounds were lethal.

2

s

» *. ,Gase 6:18-cv-00163-RAS-KNM Document20 Filed 08/20/20 Page 3 of 12 PagelD #: 1971

One of the nearby residents testified to hearing two shots, then a succession of rapidly fired
shots. Almost immediately, he saw a speeding black Tahoe chased by a green car. Other
motorists witnessed parts of the chase described by Anderson.
The Winnsboro police arrested Appellant approximately six months after the murder where
he was staying with his girlfriend, Miranda Collins. A witness identified the car as the one
occupied by Appellant and Collins on the day of the murder. The evidence strongly
suggests that this was the same green sedan used to pursue Anderson after the murder.
Tilley, 2011 WL 1689090 at *1-2.
III. Tilley’s Petition ,
In his petition, Tilley raises numerous claims of ineffective assistance of trial and appellate
counsel, a claim of alleged State misconduct, claims concerning alleged police misconduct, and
that he is actually innocent of capital murder. Tilley seeks an order of acquittal or an order vacating
his judgment and sentence.
IV. Respondent’s Answer and Tilley’s Reply
: r-

After being ordered to do so, Respondent has filed an answer, (Dkt. #9) addressing Tilley’s
petition. Respondent maintains that Tilley’s petition is barred by the statue of limitations.
Respondent also asserts that he is not entitled to equitable tolling and that his claim of actual
innocence is meritless.
In his reply,' (Dkt. #12), Tilley insists that his newly discovered evidence overcomes
Respondent’s argument concerning the statue of limitations. Moreover, he states that he is actually
innocent because he did not commit capital murder and was not at the scene of the murder.
V. Standard of Review
1. Federal Habeas Review
n

7

The role of federal courts in reviewing habeas petitions filed by state prisoners is
exceedingly narrow. A prisoner seeking federal habeas corpus review must assert a violation of a
federal constitutional right; federal relief is unavailable to correct errors of state constitutional,

3

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 4 of 12 PagelD #: 1972 c

statutory, or procedural law unless a federal issue is also present. See Lowery v. Collins, 988 F.2d
1364, 1367 (5th Cir. 1993); see also Estelle v. McGuire, 503 F.3d 408, 413 (5th Cir. 2007) (“We
first note that ‘federal habeas corpus relief does not lie for errors of state law.’”) (internal citation
omitted). When reviewing state proceedings, a federal court will not act as a “super state supreme
court” to review error under state law. Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007).
Furthermore, federal habeas review of state court proceedings is governed by the
Antiterrorism and Effective Death Penalty Act (AEDPA) of 1996. Under the AEDPA, which
imposed several habeas corpus reforms, a petitioner who is in custody “pursuant to the judgment
of a State court” is not entitled to federal habeas relief with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim—
1. resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established law, as determined by the Supreme Court of the
United States; or
.. -' .
2. resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceedings.
28 U.S.C. § 2254(d). The AEDPA imposes a “highly deferential standard for evaluating state
court rulings,” which demands that federal courts give state court decisions “the benefit of the
doubt.” See Renico v. Lett, 559 U.S. 766, 773 (2010) (internal citations omitted); see also
Cardenas v. Stephens, 820 F.3d 197, 201-02 (5th Cir. 2016) (“Federal review under the AEDPA
is therefore highly deferential: The question is not whether we, in our independent judgment,
believe that the state court reached the wrong result. Rather, we ask only whether the state court’s
judgment was so obviously incorrect as to be an objectively unreasonable resolution of the
claim.”). Given the high deferential standard, a state court’s findings of fact are entitled to a
presumption of correctness and a petitioner can only overcome that burden through clear and
convincing evidence. Reed v. Quarterman, 504 F.3d 465, 490 (5th Cir. 2007).
4

—

.

Case 6:18-cv-00163-RAS-KNM Document 20 -Filed 08/20/20 Page 5 of 12 PagelD #: 1973

2. Ineffective Assistance of Counsel
To show that counsel was ineffective, Tilley must demonstrate both deficient performance
and ensuing prejudice. See Strickland v. Washington, 466 U.S. 668 (1984). In evaluating whether
an attorney’s conduct was deficient, the question becomes whether the attorney’s conduct fell
below an objective standard of reasonableness based on “prevailing norms of practice.” See Loden
v. McCarty, 778 F.3d 484, 494 (5th Cir. 2016).
Moreover, to establish prejudice, the petitioner must show that there is a reasonable
probability that—absent counsel’s deficient performance—the outcome or result of the
proceedings would have been different. Id.; see also Reedv. Stephens, 739 F.3d 753, 773 (5th Cir.
2014) (quoting Strickland, 466 U.S. at 687)). It is well-settled that a “reasonable probability” is
one that is sufficient to undermine , confidence in the outcome of the proceedings. Strickland, 466
U.S. at 694. Importantly, the petitioner alleging ineffective assistance must show both deficient
performance and prejudice.- See Charles v. Stephens, 736 F.3d 380,388 (5th Cir. 2013) (“A failure
to establish either element is fatal to a petitioner’s claim.”) (internal citation omitted). Given the
already highly deferential standard under the AEDPA, establishing a state court’s application
whether counsel was ineffective “is all the more difficult.” Harrington v. Richter, 562 U.S. 86,
105 (2011); see also Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013) (“Both the Strickland
standard and the AEDPA standard are highly deferential, and when the two apply in tandem,
review is doubly so.”) (internal quotations and citation omitted).
V. Discussion and Analysis
1. Timeliness
/

As Respondent indicates, Tilley’ habeas petition is time-barred via the statute of limitations
under the AEDPA. An inmate must file a section 2254 motion within one year of the latest of:

5

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 6 of 12 PagelD #: 1974

(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States if removed, if the applicant was
prevented from filing such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1). Section 2244 imposes a general one-year statute of limitations.
Generally, a case is final when a judgment of conviction is entered, the availability of an
appeal is exhausted, and the time for filing a petition for certiorari has lapsed or the certiorari.
petition is actually .denied.

See Roberts v. Cockrell, 319 F.3d 690, 693-95 (5th Cir. 2003)

(explaining that finality is determined by expiration of time.for filing further appeals).
Moreover, the time period for filing a timely petition is tolled while a state habeas
application, post-conviction motion, or other application for collateral review is pending. See 28
U.S.C. § 2244(d)(2) (“[tjhe time during which a properly filed application for state post-conviction
or other collateral review with respect to the pertinent judgment or claim pending shall not be
counted toward any period of limitation under this subsection.’5).
Here, Tilley’s direct appeal was affirmed on April 29, 2011. The Texas Court of Criminal
Appeals refused his petition for discretionary review on October 19, 2011. He did not file a
petition for a writ of certiorari with the United States Supreme Court.
While the Respondent maintains that Tilley’s judgment became final ninety days after the

f-s

- v

Texas Court of Criminal Appeals denied his state habeas application, the Court notes that this is
incorrect. If a habeas petitioner has pursued direct relief through a state’s highest court—which,

6

Qaise 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page.7 of 12 PagelD #: 1975

here, would be the Texas Court of Criminal Appeals through a petition for discretionary review—
then his or her conviction becomes final when the ninety-day time period for which to file a timely
petition for a writ of certiorari expires with the Unites States Supreme Court. See Foreman v.
Dretke, 393 F.3d 336, 338 (5th Cir. 2004). Accordingly, because Tilley did not file a certiorari
petition with the United States Supreme Court, his judgment became final on January 17, 2012—
when the time for filing a certiorari petition with the Supreme Court expired. Absent any tolling,
Tilley’s federal habeas petition was due no later than January 17, 2013.
Tilley’s state habeas application—--filed in 2015 and ultimately denied in 2018 after a
hearing—did not toll the time period for which he was permitted to file a timely federal habeas
petition because he filed the state application after the one:year period expired. See Scott v.
Johnson, 227 F.3d 260, 263 (5th Cir. 2000) (“Finally, Scott’s state habeas application did not.toll
the limitations period under §2244(d)(2) because it was not filed until after.: the..period, of
limitations had expired.”) (emphasis added). Therefore, Tilley’s current federal petition, filed on
March 21,2018, is time-barred.
Tilley maintains that his petition is timely because he possesses newly discovered evidence
that he could not obtain prior to the one-year deadline, (Dkt. #1, pg. 17). Specifically, in his
memorandum of law, (Dkt. #2), Tilley cites two affidavits of recognized experts in forensic
pathology—“who, after examining the trial testimony, autopsy and police reports have provided
affidavits attesting to their professional opinions regarding the manner and circumstances
associated with the death” of the victim, (Dkt. #2, pg. 37). The first affidavit, signed by Dr.

r

Plunkett, is dated December 24, 2014, (Dkt. #2, pg. id. #78), and the second affidavit, signed by
Dr. Bonnell, is dated February 17, 2015, (Dkt. #2, pg. id. #82). In short, the affidavits discuss the
victim’s cause of death—particularly bullet angle trajectory. The crux of the affidavits—and

7

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 8 of 12 PagelD #: 1976

Tilley’s ultimate claim—is that the shots fired could not have come from the rear seat of the
driver’s side where Tilley was sitting.
i

However, these affidavits cannot be characterized as “newly discovered” evidence. The
limitations period, as mentioned, begins on the date on which the factual predicate of the claim or
claims presented could have been discovered through the exercise of due diligence. See Flanagan
v. Johnson, 154F.3d 196, 198-99 (5th Cir. 1998).
The trial record shows that the jury heard testimony concerning whether a bullet hit the
victim in the face, how the victim fell out of the truck, whether the victim was sitting up during

Ll

the first shot, testimony regarding bullet trajectory, and how there were multiple hypotheticals to

v

achieve an upwards trajectory. Because the trial occurred in February 2010, it stands to reason
that Tilley was aware of any problems associated with bullet trajectory at trial in 2010—prior to
his receiving these affidavits. In other words, the factual basis for Tilley’s current claim—that the
victim could not have been shot from where Tilley was sitting—was available to him at the earliest
in 2010. Tilley could have exercised due diligence regarding this claim prior to his 2013 deadline
in which to file his federal habeas petition. This claim should be dismissed.
2. Equitable or Statutory Tolling
• Tilley fails to demonstrate equitable tolling. Under the AEDPA, the one-year statute of
limitations period may be equitably tolled only if the petitioner demonstrates that (1) “he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood in his way” and
prevented timely filing. See Holland v. Florida, 560 U.S. 631,649 (2010); Palacios v. Stephens,
723 F.3d 600, 604 (5th Cir. 2013). Furthermore, the doctrine of .equitable tolling is available in
only the most rare and exceptional circumstances, particularly when the plaintiff is “actively
misled by the defendant about the cause of action or is prevented in some extraordinary way from

8

>1

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 9 of 12 PagelD #: 1977

asserting his rights.” See Flores v. Quarterman, 467 F.3d 484, 486 (5th Cir. 2000) (quoting
Coleman v. Johnson, 184 F.3d 398, 402 (5th Cir. 1999) (overturned on other grounds)).
Having found that Tilley was aware of any problems associated with bullet trajectory and
how the victim was shot at trial, it cannot be said that Tilley exercised due diligence'when bringing
this untimely claim. See Mathis v. Thaler, 616 F.3d 461,474 (5th Cir. 2010) (“We have stated that
equity is not intended for those who sleep on their rights.”) (internal citations and quotations
omitted). Moreover, there is no evidence that “some extraordinary circumstance” stood in Tilley’s
way to prevent him from filing a timely federal habeas petition. He is not entitled to equitable
tolling.
3. Actual Innocence
/

Tilley insists that he is actually innocent of capital murder and his sentence offends the
United States Constitution. Actual innocence, if proven, “serves as a gateway through which the

/

i

petitioner may pass whether the impediment is a procedural bar ... or, as in this case, expiration
of the statute of limitations.” See McQuiggin v. Perkins, 569 U.S. 383, 386 (2013)£ In this way,
the Supreme Court explained that tenable actual-innocence gateway pleas are rare; a petitioner
does not meet the threshold requirement unless he persuades the district court that, in light of new
evidence, no juror, acting reasonably, would have voted to find him guilty beyond a reasonable
doubt. Id. (citing Schlup v. Delo, 513 U.S. 298, 329 (1995) (claim of actual innocence requires
the petitioner to support his allegations of constitutional error with new reliable evidence, whether
it.be.exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence
which was not presented at trial)).

A

However, Tilley failed to set forth a claim of actual innocence sufficient to serve as a
gateway through which to pass to avoid the operation of the statute of limitations. As mentioned,

9

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 10 of 12 PagelD #: 1978

*

he has not provided new, reliable evidence. While Tilley relies on these “new” affidavits that
examine bullet trajectories and gunshot wounds, the record at trial shows that these issues were
discussed at length before the jury. The jury found Tilley guilty after hearing the evidence and
5

arguments from both sides. This claim should be dismissed.
VI. Conclusion
Tilley’s current federal habeas petition is time-barred through the statute of limitations
under the AEDPA. He has not presented newly discovered evidence and is not entitled to equitable
tolling. Tilley’s claim of actual innocence fails because he has presented nothing new that would
undermine the confidence in the outcome—especially given how the jury heard arguments
concerning bullet trajectory, gunshot wounds, the lack of physical evidence, how the victim was
shot and still found Tilley guilty. •
VII. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).Instead, under28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Petitioner has not yet filed a notice of appeal, the
court may address whether he would be entitled to a certificate of appealability. See Alexander v..
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious”).

10

- . . Gsse 6:18rCv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 11 of 12 PagelD #: 1979
/

A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree, with the district court’s resolution
t

of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”
and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[w]hen the
district court denied relief on procedural grounds, the petitioner seeking a COA must further show
that ‘jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565
U.S. 134, 140-41 (2012)).

.0

Here, Tilley failed to present a substantial showing of a denial of a constitutional right or
that the issues he has presented are debatable among jurists of reason. He also failed to demonstrate
that a court could resolve the issues in a different manner or that questions exist warranting further
proceedings. Accordingly, he is not entitled to a certificate of appealability regarding his habeas
claims.
RECOMMENDATION
Accordingly, it is recommended that Petitioner Tilley’s federal habeas corpus petition be
dismissed, with prejudice. It is further recommended that Tilley be denied a certificate of

i

appealability sua sponte.
Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.

11

' V *j i

Case 6:18-cv-00163-RAS-KNM Document 20 Filed 08/20/20 Page 12 of 12 PagelD #: 19ap . .

A party’s failure to file written objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy

*

shall bar that party from de novo review by the district judge of those findings, conclusions and
9

recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. Auto. Ass ’n, 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).

So ORDERED and SIGNED this 20th day of August, 2020.

K

'JWrCMJl

K. NICOL1 !mitcheli>
UNITED STATES MAGISTRATE JUDGE

*
6

12

